HHS/OIG, Audit -"Title XIX Federal Financial Participation Claimed for Rehabilitative Treatment Services Family
Preservation,"(A-07-02-03024)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Title XIX Federal Financial Participation Claimed for Rehabilitative Treatment Services Family Preservation," (A-07-02-03024)
April 12, 2004
Complete
Text of Report is available in PDF format (1.09 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the amounts claimed by the Iowa Department of Human Services (the
State) for the Rehabilitative Treatment Services Family Preservation Program met Title XIX reimbursement requirements for
Federal financial participation (FFP). Our audit period was October 1, 2000 through September 30, 2001.  Of
the 100 family preservation claims reviewed, 35 were found to contain errors and were not allowable.   We
recommended that the State return to the Federal Government $113,040 of the Medicaid FFP claimed for the Family Preservation
Program.  We also recommended that the State strengthen policies and procedures to ensure that Medicaid payments are
based on services directed exclusively to the rehabilitative treatment needs of the child, and are provided in compliance
with State and Federal regulations.